November 13, 2007

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – The Postal Service’s Violence Prevention and Response
         Programs in Two Pacific Area Performance Clusters
         (Report Number HM-AR-08-004)

This report presents the results of the U.S. Postal Service Office of Inspector General’s
(OIG) self-initiated audit of the Postal Service’s violence prevention and response
programs in two Pacific Area Performance Clusters (PC) (Project Number
06YG044HM002). The Pacific Area was one of five areas judgmentally selected from
the nine Postal Service areas of operation.1 Our overall objective was to determine if
the violence prevention and response programs in the Sacramento and San Diego PCs
effectively reduced the potential for violence. Specifically, we determined whether
(1) the PCs implemented required controls (policies and procedures) to reduce the
potential for violence and (2) oversight of the workplace violence prevention program at
the area and PC levels was adequate.

This report is the fourth in a series of six reports we will issue on the violence prevention
and response programs in 15 PCs. The sixth report will summarize the conditions
reported in the 15 PCs, management’s actions to correct the conditions, and issues
identified with nationwide impact.

We concluded the Sacramento and San Diego PCs established threat assessment
teams (TAT) and took some positive steps to reduce the potential for violence such as
conducting climate assessments and Voice of the Employee (VOE)2 focus groups.
However, the PCs’ violence prevention and response programs may not be fully
effective in reducing the potential for violence because the district and plant managers
(PC managers) and the TATs did not implement many of the required policies and
procedures to reduce the potential for violence. In addition, Pacific Area and PC
managers did not provide adequate oversight of the violence prevention and response
programs to ensure compliance with policies and procedures.

This report includes 14 recommendations to help the Pacific Area, its PCs, and its TATs
improve the effectiveness of the violence prevention and response program.
Implementation of these recommendations will also improve the safety and security of
1
  The five areas reviewed were Capital Metro, Northeast, Pacific, Southeast, and Southwest.
2
  The VOE Survey is a data collection instrument used to obtain information from all career employees regarding how
they feel about their workplace environment. The Postal Service uses this information in a number of ways, to
include ensuring employees feel safe in their workplaces.
The Postal Service’s Violence Prevention and                               HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

employees and prevent harm to the Postal Service’s reputation (goodwill). We will
report these non-monetary impacts in our Semiannual Report to Congress.

Management agreed to implement recommendations 1, 3, 6 through 8, and 10 through
14, and the actions taken or planned should correct the issues identified. Management
partially agreed to implement recommendations 5 and 9, did not agree to implement
recommendation 4, and did not address recommendation 2. In regards to
recommendations 2, 4, 5, and 9 we view management’s comments as unresponsive
and plan to pursue these recommendations through the formal audit resolution process.
Management’s comments and our evaluation of these comments are included in the
report.

                                           Background
The Postal Service has long recognized the importance of ensuring the safety of its
employees by creating and maintaining a work environment that is violence-free. In
addition, the agency is obligated under the Occupational Safety and Health
Administration (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act (the
OSH Act) of 1970. To prevent violence in the workplace and minimize the potential risk
the Postal Service established the following criteria:

    •   The Administrative Support Manual (ASM) requires security control officers or
        their designees to conduct annual facility security reviews.

    •   The Joint Statement on Violence and Behavior in the Workplace (Joint
        Statement) signed by union and management association presidents and the
        Deputy Postmaster General in 1992 states the Postal Service will not tolerate
        violent and inappropriate behavior by anyone, at any level. (See Appendix B for
        a copy of the Joint Statement.)

    •   The Threat Assessment Team Guide (Publication 108) requires TATs to assess
        and respond to violent and potentially violent situations. The guide outlines six
        strategies designed to assist the TATs: (1) selection, (2) security,
        (3) communication of policy, (4) environment and culture, (5) employee support,
        and (6) separation.

The strategies are an integral part of the Postal Service’s Strategic Transformation Plan
2006 – 2010, which identifies engaging and motivating the workforce as one of its goals.
A key transformation strategy for achieving this goal is maintaining a safe work
environment for all employees. This audit reviewed the implementation of three of the
six strategies—security, communication of policy, and environment and culture.




                                               2
The Postal Service’s Violence Prevention and                                                 HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

                          Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in detail in Appendix C.

                                       Prior Audit Coverage

We discuss prior audit coverage in Appendix D.

                                                 Results
The following summarizes our findings and recommendations regarding the
Sacramento and San Diego PCs’ violence prevention and response programs.
Additional details regarding our findings are in Appendix E.

Security Strategy - Ensure appropriate safeguards for employees, customers, and
property.

The two PCs did not consistently ensure that facilities had appropriate security safeguards
in place and that employees complied with them. Our May 2007 report disclosed
management needed to make improvements to protect employees, customers, the mail,
and critical assets.3

Appropriate security safeguards assist in preventing violence in the workplace. One such
safeguard is preventing unauthorized individuals from gaining access to postal facilities by
securing doors. The fiscal year (FY) 2006 VOE Survey results for the Sacramento and San
Diego PCs indicate that numerous employees were concerned that unauthorized
individuals could gain access to facilities in their PCs. (See Appendices F and G for
additional details regarding VOE Survey responses.)

The Pacific Area took corrective actions prior to and after issuance of our May 2007
report. We are not making recommendations in this area since management’s
corrective actions addressed the security issues.

Communication of Policy Strategy - Consistently communicate and enforce
Postal Service policy regarding violent and inappropriate behavior.

Zero Tolerance Policy Postings Could be Improved

The Sacramento and San Diego PCs disseminated copies of their current local zero
tolerance policy to all PC employees in FY 2006 through stand-up talks and new
employee orientation classes. However, management could improve its procedures for
posting their zero tolerance policy, which sometimes was not posted at all, or was not
signed by the current lead plant manager at some of the facilities we visited.

3
 Postal Service Security Controls and Processes for the Pacific Area (Report Number SA-AR-07-003, dated May 9,
2007).

                                                       3
The Postal Service’s Violence Prevention and                                                  HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

Properly posting the zero tolerance policy may reduce the potential for violence in the
workplace. For example, posting the current policy makes important information
available on the workroom floor, where employees may need it most. In addition, when
both PC managers sign the zero tolerance policy, it reaffirms to all employees the
managers’ commitment to a violence free workplace.

Corrective Action

As a result of this audit, the Sacramento PC updated their zero tolerance policy in
August 2007 to include the current lead plant manager’s signature.

Recommendation

We recommend the Vice President, Pacific Area Operations:

    1. Direct the Sacramento and San Diego Performance Cluster managers to
       implement an internal control to ensure their current zero tolerance policy is
       properly posted in all facilities, at least annually. For example, facility managers
       could provide written annual certifications to the performance cluster threat
       assessment teams.

Workplace Violence Awareness Training Needed for Some Employees

The Sacramento and San Diego PC and Human Resources (HR) managers ensured
most employees and TAT core members4 received the required training. However, the
HR managers did not ensure all managers, supervisors, and 204b supervisors5
received the required 8-hour (one-time) workplace violence awareness training.

Postal Service employees who do not receive this training may not be effective in
recognizing, preventing, and responding to violent and potentially violent situations. In
addition, TAT members that are not adequately trained may not be effective in
establishing or administering a violence prevention and response program to reduce the
risk of violence in the workplace.

Corrective Actions

Since December 2006, the Sacramento PC has trained 579 of their 656 managers,
supervisors, and 204b supervisors in the required 8-hour workplace environment
training.

The Postal Service Headquarters Employee Assistance Program (EAP)/Workplace
Environment Improvement Office established a web-based TAT Membership and
Meeting Tool to ensure TAT core members receive the required training in accordance

4
  TAT core members include the HR manager or designee, labor relations manager, medical director or occupational
health nurse administrator (OHNA), district manager or designee, and lead plant manager or designee.
5
  A 204b supervisor is a bargaining employee detailed to an acting supervisor position.

                                                       4
The Postal Service’s Violence Prevention and                                                          HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

with the TAT Guide. Effective March 2007, each PC is required to timely update the
information for their TAT core member.

Recommendations

We recommend the Vice President, Pacific Area Operations:

    2. Notify the Sacramento and San Diego Performance Cluster managers that
       workplace violence awareness training is a fiscal year mandatory requirement,
       and it is their responsibility to ensure that training occurs, preferably during non-
       peak operational periods.

    3. Direct the San Diego Performance Cluster managers to determine which
       managers, supervisors, and 204b supervisors have not received the 8-hour (one-
       time) workplace violence awareness training, and provide the training as soon as
       possible.

    4. Direct the Sacramento Performance Cluster managers to ensure the remaining
       77 managers, supervisors, and 204b supervisors receive the 8-hour (one-time)
       workplace violence awareness training as soon as possible.

    5. Instruct the Sacramento and San Diego District managers to:

         •    Remind Human Resources managers of their responsibility to conduct
              periodic reviews (at least quarterly)6 to determine if management has met the
              mandatory workplace violence awareness training requirements for all
              employees (including 204b supervisors) and threat assessment team
              members.

         •    Implement a control to ensure Human Resources managers conduct periodic
              reviews to determine which managers and supervisors did not receive the
              violence awareness training.

Strategies to Enforce Postal Policy Not Fully Implemented

The Sacramento and San Diego TATs did not fully implement violence prevention
strategies to ensure incidents of violent and inappropriate behavior were fully addressed
in accordance with the TAT Guide. We identified 257 incidents reported to the two TATs
in FY 2006 and determined that 20 of them were not properly addressed in accordance
with the TAT Guide.

Opportunities to prevent a violent incident from occurring diminish when management
does not fully implement violence prevention strategies to properly address potentially

6
  Quarterly reviews would provide sufficient time to schedule employees for training within the fiscal year it is
required.
7
  We reviewed seven Sacramento and 18 San Diego PC incidents.

                                                            5
The Postal Service’s Violence Prevention and                                                        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

violent incidents. In addition, management needs to appropriately and immediately
respond to potentially violent incidents. For example, VOE Survey quarterly reports for
the two PCs indicate many employees were concerned they were working in an unsafe
environment and could be victims of physical violence.

Recommendations

We recommend the Vice President, Pacific Area Operations:

    6. Remind the Sacramento and San Diego Performance Cluster managers of their
       responsibility to ensure threat assessment teams comply with the Threat
       Assessment Team Guide when responding to and resolving incidents of violent and
       inappropriate behavior.

    7. Direct the Sacramento and San Diego Performance Cluster managers to
       implement a control to ensure threat assessment teams comply with the Threat
       Assessment Team Guide when responding to and assessing reports of
       potentially violent situations and inappropriate behavior.

    8. Direct the San Diego threat assessment team to review the incidents that had
       insufficient supporting documentation and determine if they were resolved in
       accordance with the Threat Assessment Team Guide.

Environment and Culture Strategy - Create a work setting and maintain an
atmosphere perceived to be fair and free from unlawful and inappropriate behavior.

Monitoring and Evaluating Workplace Climate Indicators

The two PC HR managers took positive steps toward creating an atmosphere perceived
to be fair and free from unlawful and inappropriate behavior. For example, they
disseminated zero tolerance policies to all employees and provided some formal
employee training. The HR managers also monitored and evaluated VOE Survey
scores and focus groups, numbers of grievances and Equal Employment Opportunity
(EEO) complaints, EAP referrals, and Flash Reports8 to identify events that could
escalate the potential for violence. However, the managers did not document how (or
how often) they monitored and evaluated climate indicators, other than their quarterly
monitoring and evaluation of the VOE Survey results.

Effective monitoring can create a work setting and atmosphere that is perceived to be
fair and free from unlawful and inappropriate behavior. For example, documenting the
evaluation of climate indicators from previous quarters allows management to identify
trends and hotspots to reduce the potential for violence. While the VOE Survey is an
important indicator of the workplace climate, it only reports results at the facility level


8
 A Flash Report is an operations report for a specific facility that shows workhour usage, productivity, sick leave, and
overtime rates for that facility.

                                                           6
The Postal Service’s Violence Prevention and                                                       HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

when 10 or more employees respond. In that regard, the VOE Survey should not be the
only climate indicator documented because it does not represent all facilities.

In addition, we reviewed 19 complaints the OIG Hotline received during FY 2006 and
found that some employees in these PCs reported workplace environment issues.
Some of these employees sent their workplace environment complaints to the OIG
because they believed they had exhausted all avenues for resolution in their workplace.
We believe employees could view work sites where management proactively moderates
the risk of violent situations as the agency’s commitment to the zero tolerance policy.

Recommendation

We recommend the Vice President, Pacific Area Operations:

      9. Direct the Sacramento and San Diego Performance Cluster managers to ensure
         the threat assessment teams document their evaluations of climate indicators to
         identify trends and potential hotspots.

Team Process and Performance Measures Could be Improved

TAT Members, Meetings, and Minutes

The Sacramento TAT had the requisite number and type of team members, but the San
Diego team did not. In addition, both TATs did not consistently conduct quarterly9
meetings, properly prepare meeting minutes, and disseminate minutes to the required
TAT members, per the TAT Guide.

A TAT not conducting and properly documenting meetings runs the risk of not achieving
the TAT’s primary mission – preventing workplace violence.

Corrective Action

The TAT Membership and Meeting Tool should help to ensure that management
conducts and documents TAT meetings, and disseminates meeting minutes in
accordance with the TAT Guide. Effective March 2007, each PC is required to timely
update the information for their TAT.

Recommendations

We recommend the Vice President, Pacific Area Operations, direct the Sacramento and
San Diego Performance Cluster managers to:

      10. Remind the Human Resources managers of their responsibility to conduct
          meetings and properly document and disseminate the minutes to the
          appropriate threat assessment team members.
9
    The Postal Service modified the TAT Guide in March 2007 to require meetings twice a quarter.

                                                           7
The Postal Service’s Violence Prevention and                                               HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

We also recommend the Vice President, Pacific Area Operations, direct the San Diego
Performance Cluster managers to:

     11. Ensure the threat assessment team has the requisite number and type of threat
         assessment team members.

TAT Performance Measures

The San Diego TAT used surveys to measure the teams’ performance as suggested by
the TAT Guide, and maintained documentation. The Sacramento HR manager stated
the TAT implemented informal performance measures such as verbal feedback from
employees to gauge whether the TAT was successful or needed to change its
processes. However, the HR manager did not document the measures and the
measures may not be adequate.

TATs cannot provide assurance that their efforts to prevent violent incidents in the
workplace were successful or needed improvement. In addition, using the primary
measures suggested in the TAT Guide may provide more useful information to identify
areas for TAT improvement.

Recommendation

We recommend the Vice President, Pacific Area Operations, direct the Sacramento
Performance Cluster managers to:

     12. Implement controls to ensure the threat assessment team documents the
         processes used to measure the team’s performance, as required by the Threat
         Assessment Team Guide, and ensure the measurements used are adequate for
         determining success and identifying areas for improvement.

Oversight of the Workplace Violence Prevention Program

Our review of TAT activities indicates the Sacramento and San Diego PC and Pacific
Area HR managers did not provide adequate oversight of the violence prevention and
response programs. The PC managers did not ensure the two TATs implemented
many of the required policies and procedures to reduce the potential for violence related
to security, communication of policy, and the environment and culture. The PC and HR
managers also did not ensure that TATs followed appropriate processes and the
Sacramento PC and HR managers did not ensure the TAT documented performance
measures.

In addition, the former Pacific Area HR manager did not ensure the two PCs fully
implemented the workplace violence prevention program even though the OIG
recommended improvements to the Sacramento program in November 2000.10

10
  Review of the Violence Prevention and Response Programs in the Sacramento District (Report Number LB-AR-01-
004, dated November 28, 2000).

                                                      8
The Postal Service’s Violence Prevention and                             HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


Adequate oversight at the area and PC levels could reduce the potential for violence.
Specifically, when TATs do not follow important workplace violence prevention and
response program policies and procedures, the teams may not be fully effective in
reducing the potential for violence.

The internal controls recommended in this report for the Sacramento and San Diego PC
managers, if implemented, should provide sufficient oversight of the TATs at the PC
level. As a result, we have no additional recommendations for PC managers regarding
communication of policy and environment and culture strategies.

Recommendations

We recommend the Vice President, Pacific Area Operations:

    13. Implement an internal control to ensure Pacific Area Performance Cluster
        managers provide adequate oversight of their threat assessment teams to
        improve the effectiveness of the violence prevention and response programs.
        For example, performance cluster managers could provide the area vice
        president with an annual certification that the teams are conducting business in
        accordance with the Threat Assessment Team Guide and related Postal Service
        policies.

    14. Determine if the findings in this report exist in the remaining Pacific Area
        Performance Clusters – Bay-Valley, Honolulu, Los Angeles, San Francisco,
        Santa Ana, and Sierra Coastal – and, where necessary, take action to ensure
        management implements adequate controls.

Management’s Comments

Management did not clearly state whether they agreed or disagreed with the report
findings. However, management agreed to implement recommendations 1, 3, 6 through
8, and 10 through 14, and provided descriptions of actions taken and planned.

Management partially agreed to implement recommendations 5 and 9, did not agree to
implement recommendation 4, and did not address recommendation 2. Specifically,
management stated that recommendation 5 repeated recommendations 2, 3, and 4,
and that the TAT Membership and Meeting Tool will confirm TAT members’ training.
For recommendation 9, management stated the San Diego PC would document their
climate indicator evaluations, but did not address the Sacramento PC’s documentation
efforts. For recommendation 4, management stated they provided training reports and
sign-in rosters to the OIG on August 10, 2007, as support for the 77 managers and
supervisors receiving the one-time training as required.




                                               9
The Postal Service’s Violence Prevention and                               HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

Management agreed that any improvement in the workplace environment can improve
the Postal Service's reputation (goodwill), and stated they had no basis for
disagreement with the non-monetary impact.

Other management comments included that our statement in Appendix E that the HR
Managers did not fully understand the importance of TAT responsibilities was not
supported by audit findings. Management further stated that the report cited
deficiencies in areas that were not required by the TAT Guide, such as the zero
tolerance postings and how and when managers evaluate and monitor climate
indicators. Management stated that they considered these to be contradictions and
inaccuracies, and as such the report should not be disclosed in response to Freedom of
Information Act (FOIA) requests. Management’s comments, in their entirety, are
included in Appendix H.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1, 3, 6 through 8, and 10
through 14, and the actions taken or planned should correct the issues identified. Their
comments are partially responsive to recommendations 5 and 9, and are not responsive
to recommendations 2 and 4. Finally, management’s comments regarding the
contradictions and inaccuracies in the report are without merit.

We agree that management’s use of the TAT Membership and Meeting Tool will help to
ensure that TAT core members receive the required training. We have revised the
report to add management’s use of this tool as a corrective action, since it was effective
before the report was issued. We disagree with management that recommendation 5
repeats recommendations 2, 3, and 4. Recommendation 5 addresses the need to
implement a control to ensure that the deficiencies specifically addressed by
recommendations 2, 3, and 4 do not reoccur.

Management’s agreement to implement recommendation 9 in the San Diego PC, but
not the Sacramento PC, indicates there may have been a misunderstanding regarding
the intent of the recommendation. Specifically, the recommendation was for the vice
president to direct the PC managers to ensure the TATs document the evaluations. It is
not clear why one PC would be required to document their evaluations of climate
indicators, and the other would not.

The absence of management’s comments for recommendation 2 may have been an
oversight because the area vice president agreed in an August 2007 meeting that the
districts needed to provide better oversight of the violence prevention program.

We disagree with management’s response to recommendation 4, that the training
reports and sign-in rosters provided to the OIG support the 77 managers and
supervisors received the one-time training. The referenced documents supported that
579 of Sacramento’s 656 managers, supervisors, and 204b supervisors received the
required 8-hour workplace environment training. In fact, the area’s correspondence to


                                               10
The Postal Service’s Violence Prevention and                               HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

us specifically states that 579 were trained. This was shown in the report as corrective
action. No additional documentation was provided to show that the remaining 77
managers and supervisors received the training.

We do not agree with management that our statement that HR managers did not fully
understand the importance of TAT responsibilities was not supported by audit findings.
Appendix E lists the deficiencies we found related to the 25 incidents and the HR
managers’ response that despite the deficiencies they believed the TATs responded
appropriately. In our opinion, such a response indicates the HR managers did not fully
understand the importance of the TAT Guide requirements.

We also do not agree with management that posting the zero tolerance policy was not
required by the TAT Guide. The guide requires that employees be educated on their
local TAT systems and processes to support zero tolerance. The guide lists a number
of methods that can be used, including wall postings. According to Sacramento and
San Diego District management, posting the zero tolerance policy in all facilities was a
requirement.

Finally, we do not agree with management that the TAT Guide did not require that
evaluating and monitoring climate indicators be documented. The guide does not
specifically state that this must be documented, however, it does state that the TAT is
responsible for evaluating the climate indicators and that TAT responsibilities including
incident work site monitoring must be discussed at quarterly meetings. The guide
further requires that quarterly meetings be documented (minutes). Management’s
comments, in their entirety, are included in Appendix H.

We plan to pursue the resolution of recommendations 2, 4, 5, and 9 through the formal
audit resolution process. The OIG considers recommendations 1 through 5, 7 through
9, and 11 through 14 significant; therefore, they require OIG concurrence before
closure. Consequently, the OIG requests written confirmation when corrective actions
are completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2100.

 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments



                                               11
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


cc:     Mary Anne Gibbons
        Anthony J. Vegliante
        Doug A. Tulino
        Rosemarie Calabrese-Fernandez
        John E. Platt
        Manuel Botello
        Sandra J. Savoie
        Katherine S. Banks




                                               12
The Postal Service’s Violence Prevention and                      HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


                                    APPENDIX A. ACRONYMS

ASAP            Area Security Assessment Program
ASM             Administrative Support Manual
EAP             Employee Assistance Program
EEO             Equal Employment Opportunity
FOIA            Freedom of Information Act
FSS             Facility Security Surveys
FY              Fiscal Year
HR              Human Resources
NTD             National Training Database
OHNA            Occupational Health Nurse Administrator
OIG             U.S. Postal Service Office of Inspector General
OSHA            Occupational Safety and Health Administration
OSH Act         Occupational Safety and Health Act
PC              Performance Cluster
TAT             Threat Assessment Team
VOE             Voice of the Employee
WebEIS          Web-Enabled Enterprise Information System




                                               13
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


 APPENDIX B. JOINT STATEMENT ON VIOLENCE AND BEHAVIOR IN
                      THE WORKPLACE




                                               14
The Postal Service’s Violence Prevention and                                                       HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


         APPENDIX C. OBJECTIVES, SCOPE, AND METHODOLOGY
The overall objectives of this audit were to determine if the Postal Service’s violence
prevention and response programs in selected locations were effective in reducing the
potential for violence. Specifically, we determined whether (1) the Sacramento and San
Diego PCs implemented required controls (policies and procedures) to reduce the
potential for violence and (2) the level of oversight of the workplace violence prevention
program at the area and PC levels was adequate.11

To evaluate the workplace violence prevention and response program in the Pacific
Area, we judgmentally selected the Sacramento and San Diego PCs from the eight PCs
in the Pacific Area. We selected these PCs based on an analysis of seven workplace
environment climate indicators for FYs 2004 through 2006.12 We took steps to ensure
the sample was representative of PCs where the indicators show the climate was good
and where the climate was troubled. We also considered whether the PC appeared on
the Postal Service’s troubled worksite list13 and whether the OIG conducted prior
workplace environment audits in the PC. Finally, we included PCs where the OIG
Inspection Service and Facilities Directorate was auditing the Postal Service’s security
controls and processes to determine if the PCs complied with the key strategy related to
security.

We interviewed the PCs’ HR, Labor Relations, and Training managers; the Workplace
Improvement Analysts; and the area’s HR manager to determine whether (1) the
selected PCs had implemented required controls to reduce the potential for violence
and (2) Postal Service internal controls existed to provide adequate oversight of the
program at the area and PC levels. We also reviewed the TAT meeting minutes and
reports used to monitor and enforce policies and procedures to reduce violence in the
workplace. In addition, we reviewed the TAT Guide, ASM, Joint Statement, and the
OSHA “General Duty” clause to provide a safe and healthful working environment for all
workers covered by the OSH Act of 1970.

We reviewed the following data and information pertaining to the PCs’ activities related
to the violence prevention and response program:

     •   Zero tolerance policies.
     •   VOE Vital Few List.14
     •   Attendance records for required workplace violence awareness training.
     •   TAT incident reports and responses.
     •   Newsletter articles, advertisements and stand-up talks related to the zero
         tolerance policies.
11
   We will address oversight at the headquarters level in a separate report.
12
   The seven climate indicators are the VOE Survey scores, grievances, EEO complaints, EAP referrals, climate
assessments, OIG Hotline complaints, and OIG congressional inquiries regarding workplace environments.
13
   Troubled worksites are facilities where evidence exists of an ongoing history of behavioral factors that remain
unresolved at the PC and area levels.
14
   The VOE Vital Few List identifies PC facilities with the largest opportunity for VOE Survey score improvement.

                                                          15
The Postal Service’s Violence Prevention and                                                    HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

    •   Numbers of grievances and EEO complaints.
    •   Numbers of assaults and credible threats.
    •   HR managers’ and staff roles and responsibilities in the workplace violence
        prevention and response programs.
    •   Area Security Assessment Program (ASAP)15 review results.

Although we relied on data obtained from the EEO Complaints Tracking System,
Grievance Arbitration Tracking System, Inspection Service Integrated Information
System, National Training Database (NTD), payroll database, and the Web-Enabled
Enterprise Information System (WebEIS), we did not test the validity of the data and
controls over the systems. We believe the computer-generated data was sufficiently
reliable to support the opinions and conclusions in this report.

We conducted this performance audit from December 2006 through November 2007 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.16 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 9, 2007, and
included their comments where appropriate.




15
   The ASAP was a broad facility review of about 16 yes/no questions regarding core national and area security
items. The OIG report titled Postal Inspection Service Security Controls and Processes – Area Security Assessment
Program (Report Number SA-AR-07-004, dated July 10, 2007) identified that ASAPs were duplicative of security
reviews performed by the Postal Inspection Service and the reviews have been discontinued.
16
   For example, we reviewed internal controls related to the posting and dissemination of PC zero tolerance
statements, FY 2006 workplace violence awareness training records, TAT incident case files, climate indicators used
to monitor and evaluate PC workplace environments, TAT meeting frequency and minutes, and performance
measures used to evaluate TAT performance.

                                                        16
The Postal Service’s Violence Prevention and                                                    HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

                        APPENDIX D. PRIOR AUDIT COVERAGE
The OIG report titled, Review of the Violence Prevention and Response Programs in the
Sacramento District (Report Number LB-AR-01-004, dated November 28, 2000), stated
that required controls were not fully implemented to reduce the potential for violence in
the Sacramento District. The report also stated the district’s ability to respond to crisis
situations could be improved. Although the district generally complied with the TAT
Guide when reacting to incidents of violence, it did not comply with other violence
prevention requirements. Specifically, the district did not monitor and evaluate climate
indicators, provide the required 2-day orientation training for all TAT members, engage
in case management for all threats that occurred within the district, measure TAT team
performance, mandate violence awareness training and develop an action plan for
district management to deal with acts of workplace violence. We recommended the
Vice President, Pacific Area, direct the Sacramento District Manager to implement
controls to improve the effectiveness of the district’s violence prevention program and
strengthen the district’s ability to respond in a crisis. Management did not concur with
the recommendations. However, we believed the district’s planned or implemented
actions were responsive.

The OIG report titled, Postal Service Security Controls and Processes for the Pacific
Area (Report Number SA-AR-07-003, dated May 9, 2007), concluded the Postal Service
and the Postal Inspection Service have opportunities to improve security controls and
processes to more effectively and efficiently protect employees, customers, the mail,
and critical assets. Specifically, responsible security personnel did not always conduct
facility security surveys (FSS)17 accurately and annually as required. In addition,
security personnel did not always sufficiently address and resolve FSS deficiencies,
66 percent of security personnel did not receive security control officer training, and
management did not efficiently assess security operations to identify areas for
improvement. Management generally agreed with the two recommendations.

The OIG report titled, Postal Inspection Service Security Controls and Processes - Area
Security Assessment Program (Report Number SA-AR-07-004, dated July 10, 2007),
indicated that management did not effectively and efficiently use the ASAP to assess
Postal Service security and compliance with security policies and procedures.
Specifically, management developed and implemented the national standardized ASAP
without guidance or approval from the Postal Inspection Service, which has primary
responsibility for security at the Postal Service. As a result, Postal Service
management used its own personnel to conduct ASAP reviews, the results of which the
Postal Inspection Service did not take into account when assessing security operations.
Additionally, Postal Service management expended approximately $144,000 on the




17
  The FSS is an in-depth checklist of 273 yes/no questions covering various areas of security. Postal Service and
Inspection Service security officers in the field complete the survey annually.

                                                        17
The Postal Service’s Violence Prevention and                              HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

ASAP database; however, the information in the database was not reliable. We
recommended and management agreed to discontinue the use of the ASAP given that
the Postal Inspection Service does not use the results to assess security operations in
the Postal Service, and it is similar to security reviews the Postal Inspection Service
currently performs.




                                               18
The Postal Service’s Violence Prevention and                                                                                   HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

                        APPENDIX E. SACRAMENTO AND SAN DIEGO
        PERFORMANCE CLUSTERS’ CONDITIONS AND CAUSES RELATED TO AUDIT OBJECTIVES

Objective 1 – Determine if the PCs implemented required controls (policies and procedures) to reduce the
              potential for violence.
1. Security Strategy – Ensure appropriate safeguards for employees, customers, and property.
Condition    PCs did not consistently ensure appropriate security safeguards were in place and complied with at many
                                                                                                                           X   X
             facilities.
             •     Security personnel did not establish internal or management controls requiring FSS approval to ensure
                                                                                                                           X   X
                   accuracy and timeliness.
             •     Security personnel did not always conduct FSSs accurately and annually.                                 X   X
             •     Security personnel did not always sufficiently address and resolve FSS deficiencies.                    X   X
             •     66 percent of security personnel did not receive security control officer training.                     X   X
             •     Management did not effectively assess security operations to identify areas for improvement.            X   X

Cause        Management did not establish consolidated standard operating procedures and guidance.                         X   X
             Management did not implement appropriate internal and management controls.                                    X   X
             Management did not require installation heads to certify they had corrected deficiencies.                     X   X

2. Communication of Policy Strategy – Consistently communicate and enforce Postal Service policy
   regarding violent and inappropriate behavior.
Condition    PCs disseminated FY 2006 current local zero tolerance policies to all PC employees through stand up talks
                                                                                                                           9   9
             and new employee orientation classes.
             Some communication improvements are needed.                                                                   X   X
             •   The zero tolerance policy was not posted at four of the eight facilities visited.                         X   X
             •   The zero tolerance policy was not signed by the lead plant manager.                                       X

Cause        xxxxxxxxxxx did not know why policy was not posted.                                                           X   X
             xxxxxxxxxxxxxxxx did not know why the policy was not posted.                                                      X
             xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx signature was not required.                               X
Note:   X indicates the PC was not in compliance, and the cause for non-compliance.
        9 indicates the PC was in compliance.
          no symbol indicates not applicable.




                                                                                   19
The Postal Service’s Violence Prevention and                                                                                                                             HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters
2. Communication of Policy Strategy (Continued) – Consistently communicate and enforce Postal
   Service policy regarding violent and inappropriate behavior.
Condition            Workplace violence awareness training needed for some employees.                                                                 X                  X
                     •  HR managers ensured most employees (23,011) and TAT core members received the required training.                              9                  9
                     •  PC and HR managers did not ensure all managers, supervisors, and 204b supervisors received the
                                                                                                                                                      X                  X
                        required 8-hour (one time) workplace violence awareness training.

Cause                *The NTD does not identify 204b supervisors separate from their bargaining employee identification.                                                 X
                     xxxxxxxxxxxxxx not aware of the 8-hour workplace violence awareness training requirement for supervisors,
                                                                                                                                                      X
                     managers, and 204b supervisors.
                     xx managers relied on xx managers to ensure compliance with TAT training requirements.                                           X                  X
                     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx the training for managers and supervisors was completed in
                     Associate Supervisor Program (for new supervisors), and Postmaster meeting training (for current                                                    X
                     managers/supervisors).
                     xxxxxxxxxxxxxxxxxxxxxxx the OHNA was a required TAT core member.                                                                                    X

Condition            TATs did not fully implement violence prevention strategies to ensure incidents of violent and inappropriate
                                                                                                                                                      X                  X
                     behavior were fully addressed in accordance with the TAT Guide.
                     •   25 incidents reported to TATs in FY 2006 were immediately and firmly responded to (when reported).                           9                  9
                        ¾ 20 incidents were not fully addressed (five were).                                                                          X                  X
                              o Two did not receive proper case management (including documenting the assessment of the risk
                                         18
                                  level) and were not monitored and tracked to ensure resolution, while 18 received case                              X                  X
                                  management and were monitored.
                              o 16 had insufficient (or no) documentation which prevented us from determining how they were
                                                                                                                                                      9                  X
                                  addressed and resolved (four did).
                              o 11 had no documented risk abatement plans (nine did).                                                                 X                  X
                     •   Incident tracking logs not maintained to show when the 25 incidents were reported and resolved.                              X                  X

Cause           xxxxxxxxxxx did not fully understand the importance of TAT responsibilities.                                                          X                  X
                •   xxxxxxxxxxx believed that despite findings on 25 incidents, TATs handled incidents appropriately.                                 X                  X
* These are headquarters issues we will address in a capping report.




18
     The TAT Guide defines the priority risk levels as priority 1 - extreme risk; priority 2 - high risk; priority 3 - low or moderate risk; and priority 4 - no risk.

                                                                                               20
The Postal Service’s Violence Prevention and                                                                                  HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


3. Environment and Culture Strategy – Create a work setting and maintain an atmosphere
   perceived to be fair and free from unlawful and inappropriate behavior.
Condition    HR managers took positive steps toward creating an atmosphere perceived to be fair and free from unlawful
                                                                                                                          9   9
             and inappropriate behavior.
             •   HR managers used VOE Survey results, grievances, EEO complaints, and EAP referrals as climate
                                                                                                                          9   9
                 indicators to identify and follow up on events that could escalate the potential for violence
             •   HR managers assisted facility managers in developing action plans for improving low VOE Survey scores.   9   9
             Some improvements are needed.                                                                                X   X
             • xxxxxxxxxxx did not maintain documentation on how they used other climate indicators to monitor and
                                                                                                                          X   X
                 evaluate the workplace environment (including the frequency) except for VOE Survey results.

Cause        xxxxxxxxxxx considered evaluations of the VOE Survey results sufficient documentation of workplace climate
                                                                                                                          X   X
             indicators.

Condition    TATs did not consistently conduct quarterly meetings, properly prepare meeting minutes, and disseminate
                                                                                                                          X   X
             minutes to required TAT members.
             TATs had the requisite number and type of team members required by the TAT Guide.                            9   X

Cause        xxxxxxxxxx was not knowledgeable of TAT responsibilities and how team should operate.                        X   X
             •   xxxxxxxxxx believed the TAT informal meetings held periodically throughout the year were sufficient.     X   X
             •   xxxxxxxxxx did not prepare meeting minutes due to the confidentiality of cases.                          X
             •   xxxxxxxxxx did not know the OHNA was a required TAT core member.                                             X

Condition    Measures to gauge TATs’ success were not documented and may not have been adequate.                          X   9
             •  TAT informally obtained verbal feedback from employees and used VOE Surveys and Flash Reports.            9
             •  TAT used surveys as identified in the TAT Guide and maintained documentation.                                 9
             •  TAT did not document informal measurements.                                                               X   9

Cause        TAT believed the informal measures accomplished the intended purpose.                                        X




                                                                                   21
The Postal Service’s Violence Prevention and                                                                                 HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


Objective 2 – Determine the adequacy of oversight of the workplace violence prevention program
              at the area and PC levels.
Oversight of the Workplace Violence Prevention and Response Program
Condition    PC and area HR managers did not provide adequate oversight of the violence prevention and response
                                                                                                                         X   X
             programs.
             •   xxxxxxxxxxx did not ensure TATs implemented many required policies and procedures to reduce the
                                                                                                                         X   X
                 potential for violence related to security, communication of policy, and the environment and culture.
             •   xxxxxxxxxxx did not ensure that appropriate TAT processes were followed.                                X   X
             •   xxxxxxxxxxx did not ensure that performance measures were documented.                                   X   9
             •   xxxxxxxxxxxxxxxxxxxxxx did not ensure the two PCs fully implemented the program even though the OIG
                                                                                                                         X   X
                 recommended improvements to the Sacramento program in November 2000.

Cause        xxxxxxxxxxx relied on xxxxxxxxxxx to ensure compliance with the TAT Guide requirements.                     X   X
             xxxxxxxxxxxxxxx relied on the xxxxxxxxxxx to ensure compliance with the TAT requirements.                   X   X




                                                                                22
The Postal Service’s Violence Prevention and                HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters


       APPENDIX F. SACRAMENTO PERFORMANCE CLUSTER
   FISCAL YEAR 2006 VOICE OF THE EMPLOYEE SURVEY RESULTS
   FOR QUESTIONS RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  23
The Postal Service’s Violence Prevention and               HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

 APPENDIX G. SAN DIEGO PERFORMANCE CLUSTER FISCAL YEAR
2006 VOICE OF THE EMPLOYEE SURVEY RESULTS FOR QUESTIONS
         RELATED TO THE WORKPLACE ENVIRONMENT




                                                Redacted




* xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  24
The Postal Service’s Violence Prevention and           HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters

                   APPENDIX H. MANAGEMENT’S COMMENTS




                                               25
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               26
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               27
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               28
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               29
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               30
The Postal Service’s Violence Prevention and        HM-AR-08-004
 Response Programs in Two Pacific Area
 Performance Clusters




                                               31
